<html>
<title> - BLAKE, CARD, CARNES AND GARMAN NOMINATIONS</title>
<body><pre>[Senate Hearing 107-82]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-82

               BLAKE, CARD, CARNES AND GARMAN NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 on the

         NOMINATIONS OF FRANCIS S. BLAKE, NOMINEE TO BE DEPUTY 
 SECRETARY OF THE DEPARTMENT OF ENERGY; ROBERT G. CARD, NOMINEE TO BE 
                 UNDER SECRETARY OF THE DEPARTMENT OF 
 ENERGY; BRUCE M. CARNES, NOMINEE TO BE CHIEF FINANCIAL OFFICER OF THE 
    DEPARTMENT OF ENERGY; AND DAVID GARMAN, NOMINEE TO BE ASSISTANT 
SECRETARY FOR ENERGY EFFICIENCY AND RENEWABLE ENERGY OF THE DEPARTMENT 
                               OF ENERGY

                               __________

                              MAY 9, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources
                               __________

                   U.S. GOVERNMENT PRINTING OFFICE
73-676                     WASHINGTON : 2001


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  FRANK H. MURKOWSKI, Alaska, Chairman
PETE V. DOMENICI, New Mexico         JEFF BINGAMAN, New Mexico
DON NICKLES, Oklahoma                DANIEL K. AKAKA, Hawaii
LARRY E. CRAIG, Idaho                BYRON L. DORGAN, North Dakota
BEN NIGHTHORSE CAMPBELL, Colorado    BOB GRAHAM, Florida
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
RICHARD C. SHELBY, Alabama           TIM JOHNSON, South Dakota
CONRAD BURNS, Montana                MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
CHUCK HAGEL, Nebraska                DIANNE FEINSTEIN, California
GORDON SMITH, Oregon                 CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington

                    Brian P. Malnak, Staff Director
                      David G. Dye, Chief Counsel
                 James P. Beirne, Deputy Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator from Colorado...................     4
Allen, Hon. George, U.S. Senator from Virginia...................     3
Blake, Francis S., Nominee To Be Deputy Secretary of the 
  Department of Energy...........................................    10
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     5
Card, Robert G., Nominee To Be Under Secretary of the Department 
  of Energy......................................................    12
Carnes, Bruce M., Nominee To Be Chief Financial Officer of the 
  Department of Energy...........................................    13
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     3
Garman, David, Nominee To Be Assistant Secretary for Energy 
  Efficiency and Renewable Energy for the Department of Energy...    16
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     1

                                APPENDIX

Responses to additional questions................................    29

 
               BLAKE, CARD, CARNES AND GARMAN NOMINATIONS

                              ----------                              


                         WEDNESDAY, MAY 9, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Frank Murkowski, 
chairman, presiding.

         OPENING STATEMENT OF HON. FRANK H. MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Ladies and gentlemen, we're certainly pleased 
to have two of our colleagues here this morning. And, as a 
matter of courtesy, we generally have name plates for our--
obviously the staff has a little oversight. In the interest of 
senatorial courtesy, I suspect we'd better just wait for a 
moment until we get this done. Because I think it's in the back 
room.
    We have a vote scheduled at 9:30 this morning. Is it 9:35? 
And I know that I want to get started. Maybe the easiest thing 
to do would be to have the senators introduce their particular 
nominees.
    Our nominees this morning are Francis S. Blake to be a 
Deputy Secretary of the Department of Energy. Robert Gordon 
Card to be Under Secretary for the Department of Energy. Bruce 
Marshall Carnes to be Chief Financial Officer, Department of 
Energy. And David Garman to be the Assistant Secretary for 
Energy Efficiency & Renewable Energy, the Department of Energy
    Now, who's introducing who? That leaves me with Garman? 
Well, if anybody wants to introduce--volunteer to introduce 
Francis Blake, he doesn't seem to have drawn a Senator which is 
unfortunate. Evidently, Senator Allen and Senator Campbell are 
going to introduce Robert Card. And Bruce Carnes. And who else? 
We've got it now.
    Card is by Allen--Card is by Allard, Carnes is by Allen, 
and I think with such a fumbling start it's better to turn it 
over to the senators and let them proceed.
    Do you have any--do you want to try this?
    Senator Bingaman. I'm anxious to hear from our colleagues 
what their thoughts are on that.
    The Chairman. All right. Let's go with that. Please 
proceed. I guess, Senator Allard, you're senior.
    Senator Allard. Actually, Senator Campbell is senior, Mr. 
Chairman, but it's his call.
    The Chairman. It's his call.
    Senator Campbell. Mr. Chairman, you've fumbled everything 
so far. Don't worry about one more little fumble. It's okay.
    The Chairman. It's got to be uphill from here. Whatever.
    Senator Campbell. If you want to go alphabetically, I think 
I fit in.
    The Chairman. I'd suggest somebody grab it and run with it. 
Go ahead.
    [The prepared statements of Senators Murkowski, Domenici, 
and Allen follow:]

      PREPARED STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                              FROM ALASKA

    Good Morning. Today we are holding a hearing on the nominations of:

  <bullet> Francis S. Blake, to be Deputy Secretary, Department of 
        Energy
  <bullet> Robert Gordon Card, to be Under Secretary, Department of 
        Energy
  <bullet> Bruce Marshall Carnes, to be Chief Financial Officer, 
        Department of Energy
  <bullet> David Garman, to be Assistant Secretary for Energy 
        Efficiency and Renewable Energy, Department of Energy

    Mr. Blake is presently Senior Vice President of Corporate Business 
Development at General Electric where he has served since 1991. Before 
joining GE, he was a Partner with the law firm of Swidler & Berlin in 
Washington, D.C., and served as General Counsel at the Environmental 
Protection Agency from 1985 to 1988. He served as Deputy Counsel to 
Vice President George H.W. Bush from 1981 to 1983. A resident of 
Connecticut, he is a graduate of Harvard University and Columbia 
University School of Law.
    Bob Card is employed by the Kaiser-Hill Company in Colorado, and 
until recently was President and CEO of that company. He was previously 
Executive Vice President of CH2M Hill, Inc. A native of Yakima, 
Washington, he is graduate of the University of Washington and received 
his Master's degree in Environmental and Civil Engineering from 
Stanford University.
    Bruce Carnes is currently Deputy Director of Defense Financing and 
Accounting Services at the Department of Defense and was awarded the 
DOD Exemplary Civilian Service Award. He served as the Director of 
Planning, Budget and Administration at the Office of National Drug 
Control Policy from 1989 to 1993 and was Deputy Under Secretary of 
Education from 1985 to 1988. He is a graduate of the University of 
Colorado and received both a Master's degree and Ph.D. from Indiana 
University.
    David Garman is particularly well known to me and I will introduce 
him in more detail following members' opening statements.
    I trust that members will try to keep their opening statements 
short so we can maximize our time for questioning the nominees.
    I look forward to working with each of these nominees once they are 
confirmed.

                      INTRODUCTION OF DAVID GARMAN

    It is a pleasure for me to introduce one of the nominees before the 
committee, David Garman. The President has nominated David to serve as 
the Assistant Secretary of Energy for Energy Efficiency and Renewable 
Energy.
    David now resides in Virginia and the usual custom would be for 
Senator Warner or Allen to introduce him--but I am invoking the 
prerogative of the Chair and citing a special circumstance in 
introducing David today.
    David has worked with me--for Alaska--since the day of President 
Ronald Reagan's first inauguration--January 20, 1981. For over 20 
years, David has served in a variety of capacities, most recently as my 
Chief of Staff. He was my Energy LA in the early 1980s when this 
committee worked to decontrol Natural Gas Prices. He was my 
Professional Staff Member on the Senate Select Committee on 
Intelligence when we were examining the capabilities of intelligence 
assets in understanding issues such as climate change and trans-
boundary pollution from the Former Soviet Union. He also served on the 
Professional Staff of this committee, working on a variety of energy 
R&D and environmental issues.
    David has a Bachelor of Arts in Public Policy from Duke University, 
and a Master of Science in Environmental Sciences from the Johns 
Hopkins University. He has been working on energy and environmental 
issues in the Senate for the better part of 20 years, so he is well 
prepared for the job the President has nominated him for.
    David is no stranger to the members and staff of this committee. He 
served Senator Domenici and Nickles as subcommittee staff. He has 
worked closely with Senator Craig and Senator Hagel on Climate Change 
legislation. He has traveled with Senator Bingaman, Akaka, Thomas, Kyl, 
and Landrieu. One of David's virtues is his bipartisanship. He never 
hesitates to cross the aisle in pursuit of a positive legislative 
outcome. (Indeed, he didn't hesitate to cross the aisle in pursuit of a 
spouse, Kira Finkler, one of the Committee Democrat Counsels.)
    I welcome David, his family and friends, and recommend his 
nomination to the members of this committee.
                                 ______
                                 
       PREPARED STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                            FROM NEW MEXICO

    Mr. Chairman, I'm very pleased to welcome the four nominees for 
positions within the Department of Energy. That Department includes a 
very wide diversity of programs, which translates into a major 
management challenge. I appreciate that these well qualified candidates 
are ready and willing to accept these difficult assignments.
    They are accepting these challenges at the same time that the 
American people are looking to the Department to provide leadership out 
of a serious energy shortage. The days of abundant energy supplies are 
gone in many parts of our country, as evidenced by rolling blackouts in 
California just this week, as well as earlier in the year. The 
situation in California is fragile, and there can be no pretense that 
any credible solutions are quick or easy.
    It took years without an energy policy to reach the current 
conditions, and unfortunately getting more electricity onto the grid 
isn't quite as simple as flipping on a power switch someplace. We're in 
a situation where remedies will come slowly. Disruptions will continue 
for years before our supplies are back to healthy levels.
    These nominees will be called upon to join with the Secretary of 
Energy and other agencies of the federal government to craft 
solutions--solutions that will provide our nation with the best 
possible long-term energy supplies.
    Each of these nominees is well qualified to undertake their 
assignments. Francis Blake brings important experience from General 
Electric, in addition to prior government service. Bob Card has led the 
company providing the most effective, and certainly one of the most 
challenging, environmental cleanup efforts in the nation. Bruce Carnes 
brings solid experience from the Defense Department and from other 
areas of government service. I've worked with Dave Garman is his roles 
with the Energy and Natural Resources Committee and with the staff of 
Senator Murkowski; there is no question that Dave brings a superb mix 
of experience and talent to his new assignment with Energy Efficiency 
and Renewable Energy.
    Each of these nominees has my support and I look forward to the 
opportunity to vote for their confirmation on the floor of the Senate 
in the very near future. And in my capacity as Chairman of the 
Appropriations Subcommittee for Energy and Water Development, I'll be 
working closely with them to develop important new policies to lead our 
nation toward solid energy security.
                                 ______
                                 
  PREPARED STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR FROM VIRGINIA

    Mr. Chairman and members of the committee, it is my privilege to 
introduce an outstanding Virginian from Springfield/Fairfax County, 
Bruce Carnes, for your consideration as Chief Financial Officer (CFO) 
for the Department of Energy.
    Dr. Carnes has a long and distinguished 25-year record of public 
service, one that I feel makes him an exceptional choice to manage the 
financial course for the U.S. Department of Energy.
    Dr. Carnes received his bachelor's degree from the University of 
Colorado and both of his graduate degrees from Indiana University. He 
overcame this ``Virginia-deficient'' educational experience teaching 
English literature at James Madison University and undoubtedly through 
marriage to his wife, Lynore (pronounce Lynn-OR), who received her law 
degree from George Mason University.
    I am pleased to say that both of their daughters have chosen to 
follow suit, attending high school and college in the Commonwealth of 
Virginia (UVA and JMU).
    His experience in financial management is certainly impressive. Dr. 
Carnes was the Chief Financial Officer for the Defense Department and 
has also held the chief finance and budget positions of the Office of 
National Drug Control Policy, the Department of Education, and the 
National Endowment for the Humanities. He currently serves as the 
Deputy Director, or Chief Operating Officer, of the world's largest 
finance and accounting organization in the world: the Defense Finance 
and Accounting Service.
    This last Department of Defense position I mentioned requires Dr. 
Carnes to assist in the day-to-day accounting and finance activities of 
the entire Department of Defense, an area that employs more than 20,000 
civilian and military personnel at 25 locations throughout the United 
States and Pacific region. The financial resources he oversees are in 
well excess of $1 trillion.
    The changing face of the Defense Department as we exited the Cold 
War in the early 1990s provided a significant department-wide challenge 
that we will now issue to our friends at the Department of Energy. Dr. 
Carnes is entering the Department at a crucial time and his assistance 
in advancing the Administration's Energy Policy will be welcomed by all 
Americans.
    I am confident that Dr. Carnes' background and experience, 
especially in financial management, will enable him to continue his 
outstanding contributions to the federal government in his new role as 
the Energy Department's Chief Financial Officer.
    Mr. Chairman, members of the committee, it is my sincere pleasure 
to introduce this exceptional nominee to you this morning, and 
wholeheartedly recommend his confirmation.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Mr. Chairman, first of all, I want to thank 
you and congratulate you on moving forward with all of these 
nominees. And just to let you know that both Senator Allen and 
myself have met Francis here. We think he's a good guy. So now 
somebody has spoken.
    I also want to note that Senator Bingaman for his being on 
the committee and the other members I want to thank you for 
having me here today to introduce Bob Card to--or Robert Card, 
who I believe is a very deserving nominee to be the Under 
Secretary of Energy.
    Bob Card's credentials are not only extensive but 
impressive. He has a PMD, which is a Program for Management 
Development from Harvard Business School, a Master of Science 
in Environmental Engineering from Stanford University, and 
Biological Science and Civil Engineering from the University of 
Washington. And was a DOE radiation worker, too.
    For experience, he's worked for CH2M Hill for over 20 
years, which has involved work at over 10 facilities, including 
the Rocky Flats Environmental Technology site at Denver, 
Colorado.
    While at Rocky Flats, Bob and I have had an opportunity to 
meet and work together for a number of years on issues 
surrounding the Rocky Flats site. It's based on that experience 
why I so strongly recommend him today.
    Bob started at Rocky Flats as executive vice president of 
Kaiser-Hill before taking the reins as chief executive officer 
and president of Rocky Flats of Kaiser-Hill in April 1996.
    I witness Bob turn the Rocky Flats cleanup from a project 
which was scheduled to close by 2065, costing upwards to $37 
billion down to closure in 2010 and costing over $7.5 billion, 
to today's scheduled closure of 2006, costing around $7 
billion. In order to achieve these savings, Bob has had to make 
some very tough decisions and use practical business sense.
    As many of you may know, the closure of Rocky Flats is a 
very important issue to both me, my constituents, and Bob knows 
the importance of keeping all of us informed. Regardless of the 
news, he has always been honest and forthright with me and 
other members of the Colorado delegation.
    I believe Bob is the right person for this Under Secretary. 
He will bring a tough-minded business sense to the department, 
and I want to congratulate Secretary Abraham for his excellent 
choice, and believe the country and the department is lucky 
that Bob Card has answered this call to service.
    Again, I thank the committee for giving me this opportunity 
to speak on Bob's behalf. I hope that you will look favorably 
on his nomination, and it will be moved in an expeditious 
manner. Because I know Secretary Abraham would appreciate the 
help at the department. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Allard.
    Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. I think that was 
the first call to vote, so let me be brief and say I'm very 
proud and honored to be able to join Senator Allard in 
introducing Bob Card from Colorado to serve as the Under 
Secretary of Energy. I think he is overwhelmingly qualified and 
certainly putting the right people in that department is 
important.
    During the past few years, as you know, the Department of 
Energy has faced some serious lapses in security. Now we're 
experiencing an energy crisis the likes of which this country 
has not seen for decades. There has been a lack of 
comprehensive energy policy by the previous administration 
which could have alleviated many of the problems we're 
currently facing.
    The entire Department is in need of an overhaul and 
reevaluation of existing policies, and I believe Bob Card will 
complement this team in place. And he is certainly the right 
person for the job. He has been a very, very strong voice for 
promoting and enhancing our competitiveness and global 
leadership, which are crucial to our nation's energy security.
    He's an outstanding professional, and I believe he will do 
a very, very fine job in supervising the cleanup of nuclear 
weapon sites as well as the many other responsibilities in the 
Department.
    As Senator Allard has mentioned, for the past 6 years he is 
head of the Kaiser-Hill, a partnership that contracted with DOE 
to clean up Rocky Flats, which has been very troublesome, as 
you know. And I think his experience will help accelerate and 
improve work at other facilities across the Nation as well.
    As Wayne mentioned, he's a licensed engineer, also has 
graduate degrees from Stanford in civil engineering and from 
Harvard Business School. And his demonstrated abilities 
certainly should lead him to excel in this new position.
    So I just wanted to add that I'm a very ardent supporter of 
his nomination, Mr. Chairman. Thank you.
    The Chairman. Thank you very much, Senator Campbell. We 
have Senator Allen who will introduced Bruce Carnes for the 
Assistant Secretary for Energy--excuse me. Bruce Carnes for 
Chief Financial Officer, Department of Energy.
    Senator Allen. Thank you, Mr. Chairman, Senator Murkowski, 
Senator Bingaman, Senator Campbell. It's a pleasure for me to 
introduce an outstanding resident of Virginia. But before I do, 
I want to join in with Wayne Allard in saying that for Deputy 
Secretary, Francis Blake, although he's from Connecticut, would 
be an outstanding choice.
    So you have the Northeast, the West, and the South 
together. He seems like a good fellow and with obviously a good 
sense of humor.
    The Chairman. And he's a resident of Virginia?
    Senator Allen. No, no, he lives in Connecticut.
    The Chairman. It's too bad.
    Senator Allen. It is too bad, but he's going to undoubtedly 
move to Virginia once he gets this appointment because----
    The Chairman. That's fair enough. You take commissions on 
real estate sales?
    Senator Allen. Trying to sell my own place.
    The Chairman. Oh, there you go.
    Senator Allen. I'm sure he'll show good judgment and move 
to Virginia.
    At any rate, Mr. Chairman, Bruce Carnes lives in Fairfax 
County, and he's under consideration for Chief Financial 
Officer for the Department of Energy, and he has a very 
distinguished 25-year career in a variety of areas to the 
Nation in public service. He's, I think, a very wise and 
exceptional choice to manage the financial course for the U.S. 
Department of Energy.
    Dr. Carnes, to the interest of Senator Allard and Senator 
Campbell, received his bachelor's degree from University of 
Colorado and graduate degree from Indiana University.
    Senator Allen. Picked up our vote.
    Senator Allard. Picked up your votes, good. He overcame 
this Virginia-deficient education experience, though, by 
teaching English at James Madison University, where one of his 
daughters graduated. The other graduated from the University of 
Virginia. Both then went on to serve in the U.S. Army, 
achieving the rank of captain.
    His wife Lenore, who is with him here today, received her 
law degree from George Mason University.
    Most probative, Mr. Chairman, is the fact that he's worked 
in the National Drug Control Policy Office, the Department of 
Education, the National Endowment for Humanities. He currently 
serves as the Deputy Director or Chief Operating Officer of the 
world's largest finance and accounting organization in the 
world, the Defense Finance & Accounting Service.
    This last Department of Defense position I mentioned 
required Dr. Carnes to lead and manage the day-to-day 
accounting and finance activities of the entire Department of 
Defense. This is an area that employs more than 20,000 civilian 
and military personnel at 25 locations throughout the United 
States and the Pacific region. The financial resources that he 
oversees are well in excess of $1 trillion.
    Now, the changing face of the Defense Department, as we 
exited the Cold War in the early 1990's, provided a significant 
department-wide challenge that will now issue to our friends in 
the Department of Energy. Dr. Carnes is entering the department 
at a crucial time, and his leadership and expert assistance in 
advancing the administration's energy policy will be welcomed 
by all Americans.
    And I know the chairman of this committee has been 
advocating an outstanding group of ideas, specifics of what we 
need to do to become more energy independent, and the whole 
country will appreciate that, and obviously Dr. Carnes in 
managing the efficiency of that office will be important.
    I'm confident that Dr. Carnes' background and experience, 
especially in financial management, will enable him to continue 
his outstanding contributions to the Nation in his new role as 
the Energy Department's CFO.
    Mr. Chairman and members of the committee, it's my sincere 
pleasure to present this exceptional nominee, Dr. Bruce Carnes, 
this morning to you and wholeheartedly recommend his approval.
    The Chairman. Thank you very much. Thank you very much for 
that introduction, Senator Allen, and Senator Allard. We're 
going to recess briefly, then we'll introduce Mr. Blake and Mr. 
Garman.
    [Recess taken from 9:48 a.m. to 10:03 a.m.]
    The Chairman. We'll call a recess to a conclusion, and we 
have our panel of nominees before us. And I want to take the 
opportunity along with Senator Bingaman very briefly to 
introduce the two nominees that have not been introduced 
previously. We had Senator Allard and Senator Allen here 
previously.
    But Mr. Blake, Francis S. Blake, a good name, Francis. It 
reminds me of Frank and some of those other names that I've 
heard from time to time. But Mr. Blake is nominated to be 
Deputy Secretary for the Department of Energy, which obviously 
is a timely topic these days. You can't hardly open anything or 
walk down any halls around Washington without an inquiry on 
energy.
    Now, Mr. Blake is presently the senior vice president of 
Corporate Business Development at General Electric, where he's 
served since 1991 before joining GE. He was a partner at a law 
firm of Swindler & Berlin in Washington and served as the 
General Counsel at the Environmental Protection Agency from 
1985 to 1988. He served as Deputy Counsel to Vice President 
George H.W. Bush from 1981 to 1983. He's a resident of 
Connecticut. He's a graduate of Harvard University and Columbia 
University School of Law.
    Senator Bingaman, do you have any comments relative to the 
introduction of a nominee?
    Senator Bingaman. I do not, Mr. Chairman. I strongly 
support all four of these nominees. I do have a couple of 
questions when we get to the question portion, but I think they 
are all good nominations, and I look forward to getting them 
confirmed.
    The Chairman. Thank you very much, Senator Bingaman.
    Our last nominee and the gentleman on the far right is no 
stranger to me. I've enjoyed the association for some 20 years. 
He's taught me a lot. He's an extraordinarily well-organized 
individual and, as a consequence, he's helped me a little bit. 
But I have not followed in his foot steps to the extent of his 
organizational ability.
    It certainly is a pleasure to have the opportunity here to 
recognize someone that has had a personal relationship with 
both Nancy and I in the sense of working daily with this 
individual. And to see him advance, accept more responsibility, 
and finally have it culminated in a nomination, a presidential 
nominee I think is extremely noteworthy of David's ability and 
commitment to serve.
    In the nomination by the President to serve as the 
Assistant Secretary of Energy for Energy Efficiency and 
Renewable Energy, David accepts a significant responsibility.
    He is a resident of Virginia. You might wonder why the 
Virginia Senators are not here, but I took the broad authority 
as chairman to usurp them in this regard and accept the 
responsibility of introducing them myself.
    As I indicated, David has been with me for over 20 years. 
He came in January 1981. For over 20 years he served in a 
variety of capacities, most recently as my Chief of Staff. He 
was an Energy LA on my staff in the early 1980's when the 
committee worked to decontrol natural gas prices.
    He was my central staff member on the Senate Select 
Committee on Intelligence when we were examining the 
capabilities of intelligence assets and understanding issues 
such as climate change, transboundary pollution in the former 
Soviet Union. I had that position on the Energy Committee--
excuse me, for the Intelligence Committee for 8 years.
    He also served on the professional staff of the committee 
working on a variety of energy R&D and environmental issues. 
David joins us with an academic background of a Bachelor of 
Science and Public Policy from Duke University, and Master of 
Science and Environmental Sciences from Johns Hopkins 
University. He's been working on energy and environment issues 
in the Senate for the better part of 20 years.
    I think he's well prepared to serve the President and the 
Nation in the job that he's been nominated for. He certainly is 
no stranger to members of the staff of this committee.
    He served with Senator Domenici and Senator Nickles on the 
subcommittee staff. He's worked closely with Senator Craig and 
Senator Hagel on climate change. He's traveled with Senator 
Bingaman, Senator Akaka, Senator Thomas, Senator Kyle, and 
Senator Landrieu.
    And one of David's virtues is his bipartisanship. He never 
hesitates to cross the aisle in pursuit of a positive 
legislative outcome, or sometimes cross the aisle in pursuit of 
a spouse. His wife, Kira, is with him today, and she's one of 
the democratic counsels for this committee.
    I welcome David and their daughter and the family and 
friends and certainly recommend his nomination to members of 
this committee.
    Now, before we start, Mr. Blake, do you have anyone in the 
audience you would like to introduce?
    Mr. Blake. Oh, no, sir. My son is a lieutenant in the Army. 
He's now in Colorado. My daughter is at school at Stanford. So 
neither of them could be here.
    The Chairman. All right. You're writing checks to Stanford 
University at this time?
    Mr. Blake. All the time.
    The Chairman. All right, Mr. Card.
    Mr. Card. Yes, Senator, I'd like to introduce my spouse, 
Nancy, and my daughter, Alison, and my son, Christopher.
    The Chairman. Please stand up, thank you, and be 
recognized. The applause is for your family members, I might 
add, that are going to have to put up with an awful lot here in 
your new position.
    Mr. Carnes.
    Mr. Carnes. Thanks, Mr. Chairman. Yes, I would like to 
introduce my wife, Lenore----
    The Chairman. Lenore, good morning.
    Mr. Carnes. And my sister-in-law, Barbara Brenner.
    The Chairman. Barbara, how are you?
    And Mr. Garman.
    Mr. Garman. Yes, thank you, Mr. Chairman. With the 
committee's indulgence, I have a large--I have a large 
contingent.
    The Chairman. Nobody is in Florida today.
    Mr. Garman. My wife, Kira, and, of course, my daughter, 
Bonnie. My parents, Jack and Jane Garman, from Norcross, 
Georgia. My mother's sister, my aunt Jean Hoscloth from 
Jamestown, North Carolina. And from Washington, D.C., John and 
Maria Barons, who are Kira's great aunt and uncle.
    The Chairman. Well, thank you very much, David, and my 
congratulations to you. And I join with your family, your wife, 
and your daughter in the pride of this moment.
    And I think, Senator Bingaman, that we could go into the 
opening statements now of the members. I would encourage you to 
be brief and succinct and highlight what you feel is important 
to the committee.
    Please proceed and we'll start with Mr. Blake and end up 
with Mr. Garman. Is that fair enough?
    Mr. Blake. Mr. Chairman, members of the committee, my name 
is Frank Blake. It is----
    The Chairman. Well, we've got another--I must swear you all 
in. I'm glad counsel is keeping me informed in advance.
    If you will stand, gentlemen. The rules of the committee 
which apply to all nominees require that they be sworn in, in 
connection with their testimony.
    So would you please raise your right hand, gentlemen. Do 
you solemnly swear that the testimony you are about to give to 
the Senate Committee on the Energy and Natural Resources shall 
be the truth, the whole truth, and nothing but the truth?
    Mr. Blake. I do.
    Mr. Card. I do.
    Mr. Carnes. I do.
    Mr. Garman. I do.
    The Chairman. Please be seated. Before you begin your 
statement, I would ask you three questions addressed to each 
nominee before the committee. Will you be available to appear 
before this committee and other congressional committees to 
represent departmental positions and respond to issues of 
concern to Congress?
    Mr. Blake. I will.
    Mr. Card. I will.
    Mr. Carnes. I will.
    Mr. Garman. I will
    The Chairman. As you are aware, are there any personal 
holdings, investments, or interests that could constitute a 
conflict or create the appearance of such a conflict should you 
be confirmed and assume the office to which you have been 
nominated by the President?
    Mr. Blake. Mr. Chairman, my investments, personal holdings, 
and other interests have been reviewed both by myself and the 
appropriate ethics counselors within the Federal Government. I 
have taken the appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest or appearance 
thereof, to my knowledge.
    The Chairman. Mr. Card.
    Mr. Card. Mr. Chairman, my personal interests, personal 
holdings, and other interests have been reviewed both by myself 
and the appropriate ethics counselors within the Federal 
Government. I have taken appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest or 
appearances thereof, to my knowledge.
    The Chairman. Thank you.
    Mr. Carnes.
    Mr. Carnes. Mr. Chairman, my investments, personal 
holdings, and other interests have been reviewed by myself and 
the appropriate ethics counselors within the Federal 
Government. I have taken appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest or 
appearances thereof, to my knowledge.
    The Chairman. Thank you.
    Mr. Garman.
    Mr. Garman. Mr. Chairman, my investments, personal 
holdings, and other interests have been reviewed both by myself 
and the appropriate ethics counselors within the Federal 
Government. I have taken the appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest or 
appearances thereof, to my knowledge.
    The Chairman. Thank you. Are you involved or do you have 
any assets held in blind trusts? And let's go down the line.
    Mr. Blake?
    Mr. Blake. No.
    The Chairman. Mr. Card?
    Mr. Card. No.
    The Chairman. Mr. Carnes?
    Mr. Carnes. No.
    The Chairman. Mr. Garman?
    Mr. Garman. No.
    The Chairman. Do you--I think we've got it; is that right? 
All right. Thank you, Counselor. Let's proceed again.
    Mr. Blake, we won't interrupt you this time.

 TESTIMONY OF FRANCIS S. BLAKE, NOMINEE TO BE DEPUTY SECRETARY 
                  OF THE DEPARTMENT OF ENERGY

    Mr. Blake. Thank you, Mr. Chairman. Mr. Chairman and 
members of the committee, my name is Frank Blake. It is a great 
privilege to appear before you today as President Bush's 
nominee to be Deputy Secretary of Energy. I'd like to commit my 
statement for the record and just make some----
    The Chairman. Without objection, so noted.
    Mr. Blake. And just make some brief comments in summary. I 
spent almost my entire professional career working on issues 
associated with power generation, transmission, and 
distribution. For the last 10 years I've worked at General 
Electric principally at GE's Power Systems Division. Most 
recently at corporate headquarters as senior vice president for 
Business Development.
    Prior to that, I had the opportunity to serve in the Reagan 
administration, first as Deputy Counsel to then Vice President 
Bush, and then as General Counsel U.S. Environmental Protection 
Agency from 1985 to 1988.
    If confirmed, I look forward to the opportunity of working 
for Secretary Abraham and working with the members of this 
committee. I believe that my experience in both the public and 
private sectors will be of use in addressing the problems and 
issues that face the Department of Energy.
    Looking from the outside, one of the most interesting 
things about the Department is how varied its mandates are. 
From protecting and ensuring the country's nuclear arsenol, to 
conducting probably the world's largest environmental cleanup 
program, to overseeing some of the Nation's premier research 
and development facilities. And finally, of course, to working 
with others in developing the Nation's energy policy.
    I think as varied as these tasks are, these are unique 
times that present terrific opportunities to make substantial 
improvements in each and every one of these areas. If 
confirmed, I look forward to working with all of you in that 
task.
    [The prepared statement of Mr. Blake follows:]

PREPARED STATEMENT OF FRANCIS S. BLAKE, NOMINEE TO BE DEPUTY SECRETARY 
                      OF THE DEPARTMENT OF ENERGY

    Mr. Chairman and members of the committee, it is privilege to 
appear before you today as President Bush's nominee for Deputy 
Secretary of Energy. I look forward, if confirmed, to the opportunity 
of working with Secretary Abraham and the members of this Committee.
    I have been fortunate in my career to have worked for extraordinary 
leaders in both the public and private sectors, including former 
President George Bush and Jack Welch, CEO of General Electric. There 
are enormous differences between the public and private sectors, but I 
believe there is a great deal to gain from sharing the perspectives 
learned in each. In particular, I believe that the public sector, 
legitimately wary of the latest corporate management philosophies, may 
still benefit from a private sector culture that is constantly seeking 
to improve itself. I look forward to working on that objective with 
Secretary Abraham and the management team that the President and he, 
with the Senate's concurrence, are putting in place.
    The issues and challenges faced by the Department of Energy are 
many and varied. First and foremost, the Department must support our 
national security, ensuring that our nation's nuclear arsenal is safe, 
secure and reliable and in helping on issues related to nuclear 
nonproliferation. Secretary Abraham has pledged that this stands as his 
highest priority, and my role will be to assist him and General Gordon 
in accomplishing that.
    The Department also has a critical role to play in the formulation 
and implementation of our country's energy policy. I have spent most of 
my professional life working on issues associated with energy policy 
and, in particular, power generation, transmission and distribution. 
The challenges the country now faces in those areas are apparent, as 
this Committee well knows. Fundamental problems of supply, demand and 
delivery have to be addressed. This committee will play a critical part 
in developing the short and long term solutions to these problems, and 
I look forward to working with you in that effort.
    The third area of focus for the Department is science and 
technology. I have had the opportunity in the private sector to see 
first hand the benefits of the Department's support for research and 
development in critical areas of advanced technology. These programs at 
the Department and the National Laboratories provide an important 
benefit to our country's competitiveness. They help to encourage and 
harness some of the most creative work within industry, government and 
academia. The task is to make these strong programs even stronger.
    Finally, the Department faces an enormous task in implementing the 
world's largest clean-up program. I have had experience in clean-up 
programs in both the private sector, through managing the 
environmental, health and safety programs of GE's Power Systems 
division, and in the public sector, through my role as General Counsel 
for EPA, from 1985 to 1988. This is a contentious area, where the 
possibilities of misunderstanding, confusion and programmatic drift are 
enormous. But the President, Secretary Abraham and the operating team 
at the Department are committed to reaching sound decisions, based on 
science, that will protect the public health and welfare.
    Thank you again for the opportunity to appear before you, and if 
there are any questions, I would be pleased to try to answer them.

    The Chairman. Thank you, Mr. Blake.
    Mr. Card.

 TESTIMONY OF ROBERT G. CARD, NOMINEE TO BE UNDER SECRETARY OF 
                    THE DEPARTMENT OF ENERGY

    Mr. Card. Thank you, Mr. Chairman, members of the 
committee. I'm honored to appear before you today as President 
Bush's nominee for Under Secretary of Energy.
    The Chairman. If you would be kind enough to pull that 
microphone up a little bit. Thank you.
    Mr. Card. I'm going to summarize my statement also and ask 
that it be submitted for the record.
    The Chairman. Without objection.
    Mr. Card. I am pleased to have this opportunity to talk 
with you and respond to any questions you may have today. 
Current events have placed a great responsibility on DOE, a 
responsibility that I take seriously. I look forward to working 
with the committee and the Secretary to help resolve the 
pressing cleanup, science and energy issues which confront our 
nation.
    If confirmed, my primary focus at DOE will be on day-to-day 
operations to improve the Department's efficiency and 
effectiveness. What I've heard from many of you and others is 
you want a faster and less costly cleanup, but you want to 
protect and enhance our science assets and capability. And that 
you want effective operations of our energy functions to help 
ensure reliable, economical, environmentally sustainable energy 
supplies.
    Further, you want this accomplished----
    The Chairman. If you would pull that up because we're still 
having a difficult time.
    Mr. Card. How's that?
    The Chairman. That's great.
    Mr. Card. Further, you want this accomplished safely and 
with the security posture that protects our national interests. 
Moving towards this goal is obviously a daunting challenge, and 
I look forward to your experience help and guidance in this 
undertaking. Thank you.
    [The prepared statement of Mr. Card follows:]

PREPARED STATEMENT OF ROBERT G. CARD, NOMINEE TO BE UNDER SECRETARY OF 
                        THE DEPARTMENT OF ENERGY

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Bush's nominee for Under Secretary of 
Energy. I am pleased to have this opportunity to talk with you and 
respond to any questions that you may have.
    Please allow me to introduce my wife Nancy and my children, 
Christopher and Allison, who have joined me today.
    Current events have placed great responsibility on the DOE--a 
responsibility that I take seriously. I look forward to working with 
the committee and the Secretary to help resolve the pressing cleanup, 
science, and energy issues which confront our nation.
    If confirmed, my primary focus at the DOE will be on day-to-day 
operations to improve the Department's efficiency and effectiveness. 
What I have heard from many of you, and others, is that you want a 
faster and less costly cleanup; that you want to protect and enhance 
our science assets and capability; and that you want effective 
operations of our energy functions to help ensure reliable, economical, 
and environmentally sustainable energy supplies. Further, you want this 
accomplished safely and with a security posture that protects our 
national interests. Moving toward this goal is obviously a daunting 
challenge, and I look forward to your experience, help, and guidance in 
this undertaking.
    Many studies have cited the high cost of DOE's cleanup program. In 
spite of recent accomplishments, the Department needs to do a better 
job in this area, and answer the mail on why more isn't being delivered 
for our 6 billion-dollar annual investment. As a nuclear operations 
executive, I am sensitive to both the importance of this issue and the 
immense challenge of accomplishing this safely at DOE's aging nuclear 
facilities. In using my site management experience to improve this 
program, I realize that each site within the DOE has unique 
circumstances that defy a cookie cutter approach, and their challenges 
are complex. I have been fortunate in that I have worked with the 
leadership of most of DOE's major sites to better understand their 
issues. In moving towards accelerating cleanup, I endorse the cleanup 
program evaluation called for by the Secretary, and I look forward to 
working with you to craft a path forward to meet the Department's 
cleanup obligations.
    DOE's science program has made significant contributions to our 
national well being and competitiveness. It has played host to numerous 
Nobel laureates and important discoveries and developments in the 
physical sciences. These have contributed to major gains in public 
health, personal and national security, electronics, and energy, to 
name a few. We need to work on ways to cut red tape to make the science 
program more competitive and to fund projects to improve our aging 
infrastructure. We also need to work toward ensuring that new science 
initiatives important to our national interest are identified and 
appropriately funded.
    This committee and DOE play an important role in developing 
strategies to bring economical, reliable, and environmentally 
sustainable energy to American consumers. To aid the Secretary in 
implementing these strategies, I bring the Department first hand 
experience with both oil production and nuclear issues, in addition to 
having lead my firm's energy business. This business included projects 
in renewable and energy efficiency technologies. I support the 
Administration's view that we need to encourage a broad mix of energy 
sources in our portfolio, and we need to continue working on 
technologies to ensure that all of our available resources for energy 
supply and energy efficiency are able to be applied to their fullest 
potential.
    In conclusion, I look forward to working with you to make DOE more 
productive and cost effective, while simultaneously maintaining our 
vigilance on safety, security, and environmental compliance. I also 
want to express my appreciation for the very rapid scheduling of this 
hearing at a busy time for the committee.
    Thank you.

    The Chairman. Thank you, Mr. Card.
    Mr. Carnes.

  TESTIMONY OF BRUCE M. CARNES, NOMINEE TO BE CHIEF FINANCIAL 
              OFFICER OF THE DEPARTMENT OF ENERGY

    Mr. Carnes. Thank you, Mr. Chairman, members of the 
committee. Thank you for the opportunity to appear before you 
here today. I'm honored to be the President's nominee to be 
Chief Financial Officer at the Department of Energy. Mr. 
Chairman, I have submitted a formal written statement that I 
ask be included in the record.
    The Chairman. Without objection.
    Mr. Carnes. If I could, I would like to briefly summarize 
my statement. Mr. Chairman, public trust, public service is a 
trust in our family. My grandfather and uncle were elected 
public officials, my father was a career Army officer, my wife, 
Lenore, and I had two children, daughters, both of whom rose to 
the rank of captain in the U.S. Army.
    My older daughter served in Bosnia, was a company commander 
in Albania during the Kosovo conflict, and was involved in the 
security operations related to the U.S.S. Cole aftermath.
    I've served in the Federal Government for nearly 25 years. 
I've been the Chief Financial Officer of the Defense Finance & 
Accounting Service, an agency of about 19,000 civilian and 
military personnel for the past 2 years. Been their chief 
operating officer which performs all the financial operations 
of the Defense Department. I've also been the chief budget and 
financial official at various other agencies and departments.
    There are few, if any, issues of greater importance in the 
Nation than those in Energy. If I am confirmed, Mr. Chairman, 
one of my top priorities will be to provide to you members of 
this committee, the Congress, and the public the financial 
information needed to make sound and informed decisions and to 
ensure that the taxpayer's dollars are being spent wisely and 
as intended in addressing those issues.
    To that end, if I am confirmed, I will do everything I can 
to ensure that the Department of Energy continues to receive a 
clean audit opinion. The Congress and the American people 
expect good financial stewardship, and they deserve no less.
    At the same time, if I am confirmed, I would hope to do 
more than provide financial data. Data needs to become 
information to help the secretary and his senior officers 
manage and make informed decisions, and it needs to be timely. 
Managers need the financial equivalent of a GPS system. And if 
confirmed, I would place a high priority on providing that 
information.
    Finally, I would note that the staff of the CFO office and 
congressional staff have had an excellent working relationship 
over the years. If I am confirmed, I intend to ensure that that 
relationship is nurtured and that we are responsive, timely, 
and accurate in providing to the Congress the information that 
it requests.
    Mr. Chairman, this concludes my statement. I would be happy 
to respond.
    [The prepared statement of Mr. Carnes follows:]

 PREPARED STATEMENT OF BRUCE M. CARNES, NOMINEE TO BE CHIEF FINANCIAL 
                  OFFICER OF THE DEPARTMENT OF ENERGY

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Bush's nominee to be the Chief Financial 
Officer of the Department of Energy. I am also extremely grateful for 
the confidence that Secretary Abraham has placed in me.
    Mr. Chairman, I would like to introduce my wife, Lynore Carnes. In 
nearly 33 years of marriage she has been my most ardent supporter and 
valued friend and counselor. Like me, Lynore is a Federal employee. 
Indeed, our family has a rich tradition of public service: my 
grandfather and uncle were elected public officials, my father was a 
career Army officer, both of our daughters were Army officers, and they 
married men who were also Army officers. Public service is a trust, a 
calling, that I take with the utmost seriousness.
    Mr. Chairman, although I began my professional life as an academic, 
I bring to this job nearly 25 years of experience in the Federal 
government, almost all of it in the financial arena. I have been the 
Chief Financial Officer in the Defense Finance and Accounting Service 
and have been the principal budget and planning official in three 
others agencies: the National Endowment for the Humanities, the U.S. 
Department of Education, and the Office of National Drug Control 
Policy. Most recently I have been the Deputy Director, or Chief 
Operating Officer, of the Defense Finance and Accounting Service, 
responsible for all the day-to-day operations of an agency of 19,000 
civilian and military personnel performing all the financial operations 
of the Defense Department world-wide. I hope, and believe, that this 
diverse experience and wide range of financial and public policy issues 
will provide a solid basis on which to meet the CFO's responsibilities 
and duties at the Department of Energy.
    The energy policy challenges that the Nation faces rise to the 
highest level of importance. Few issues command such intense public 
interest and attention. Each of the Department's major program areas--
national defense, energy, science, and environmental cleanup--matters 
profoundly to the American people and to the Congress. If I am 
confirmed, Mr. Chairman, one of my top priorities will be to provide to 
you, the Members of this Committee, the Congress, and the public the 
financial information necessary to make sound, timely public policy 
judgments and decisions on these paramount issues, and to ensure that 
the taxpayers' dollars are being spent wisely and as intended.
    The Chief Financial Officers Act of 1990 lays out eight statutory 
responsibilities for the CFO. Prominent among them is preparing an 
annual report that includes the Department's financial statements and 
audit. Getting a clean audit opinion in Federal agencies has proved to 
be a greater challenge than people perhaps originally thought, but I am 
pleased to say that my previous agency, the Defense Finance and 
Accounting Service, received a clean opinion for its latest financial 
statements, making it the first operational entity in the Defense 
Department to do so. More important, the Department of Energy has 
received a clean opinion for the last two years, and in fact received a 
grade of ``A'' from Congressman Horn. If I am confirmed, a top priority 
of mine will be to ensure that this splendid achievement continues. The 
Congress and the American people expect good financial stewardship of 
the taxpayers' dollars. They deserve no less.
    At the same time, if I am confirmed I would work to provide the 
Department's managers the information they need to manage and make 
informed decisions. Financial data, no matter how accurate and perfect, 
must be turned into meaningful information that supports the work of 
senior managers. Managers need the financial equivalent of a global 
positioning system: they need to know what things cost, and they need 
to know it quickly. They need financial intelligence, not just data, 
and I would place increased focus on this analytic capability.
    Another principal responsibility of the Chief Financial Officer 
laid out in statute is to have an integrated agency accounting and 
financial management system. Coming from the Defense Department, Mr. 
Chairman, I can candidly assure you that I know how important this is. 
I also know how challenging it is. At DoD significant strides have 
occurred--two-thirds of the more than 300 legacy accounting systems 
have been eliminated and replaced by migratory systems that are CFO-
compliant. At Energy a major effort has begun to procure and develop a 
migratory financial management system to replace outdated, 
incompatible, non-compliant legacy systems. If I am confirmed, I intend 
to ensure that this process continues aggressively. Such system 
improvements, done properly, produce not only accurate and timely 
information, they produce savings in infrastructure costs.
    The CFO Act links an integrated accounting and financial management 
system to internal controls. Under my tenure as Chief Operating Officer 
at the Defense Finance and Accounting Service, I created and staffed an 
office of Internal Review that reported directly to me. This office 
enjoyed a fruitful and productive working relationship with the Defense 
Department's Inspector General. If I am confirmed, Mr. Chairman, I 
would intend to place great emphasis on sound internal controls at the 
Department of Energy.
    This will not only help ensure that the Department continues to 
receive a clean audit opinion, it is absolutely essential to providing 
to the Secretary the financial management information he needs in order 
to make sound decisions. Indeed, I would go further, and suggest that 
each major program area needs useful, meaningful financial information, 
not just data. Program managers need, and deserve, what I would call 
the financial equivalent of a global positioning system: they want, and 
rightly so, real-time financial intelligence. Done right, such 
information is by definition CFO-compliant. If I am confirmed as Chief 
Financial Officer, I would intend to make this one of my major 
initiatives.
    Another major statutory responsibility conferred on the Chief 
Financial Officer is to oversee all financial management activities of 
the programs and operations of the agency. Although there is only one 
statutory Chief Financial Officer for the Department of Energy, the 
major program areas and field offices have budget and financial 
management staffs. Such arrangements present no problem; indeed, I 
would suggest that if those positions did not exist we would have to 
create them. A similar situation exists between the Comptroller of the 
Department of Defense and the comptrollers of the three Military 
Departments: there is one comptroller for Defense, but all work 
together collegially. That is how I intend to proceed if I am 
confirmed. This approach, I believe, is analogous to the National 
Nuclear Security Administration, which Congress established as a semi-
autonomous entity within the Department, with the Administrator 
reporting to the Secretary of Energy. As such, NNSA is subject to 
overall guidance and direction from the Secretary, including policy on 
financial matters, within which it is my belief they would have broad 
discretion unless otherwise determined by the Congress. At the same 
time, any financial guidance that the Department would promulgate 
should give great consideration to the advice and counsel of NNSA.
    Finally, Mr. Chairman, I would note that the Chief Financial 
Officer's staff and the staff of this Committee and other Committees 
have enjoyed a good working relationship over the years. If I am 
confirmed, I intend to continue that relationship and to ensure that 
the Congress gets the information it wants when it wants it, and that 
it is accurate and reliable.
    Mr. Chairman, this concludes my statement. Thank you for your 
consideration of my nomination and the opportunity to appear before you 
today. I would be pleased to respond to any question you may have.

    The Chairman. Thank you, Mr. Carnes.
    Mr. Garman.

    TESTIMONY OF DAVID GARMAN, NOMINEE TO BE THE ASSISTANT 
 SECRETARY FOR ENERGY EFFICIENCY AND RENEWABLE ENERGY FOR THE 
                      DEPARTMENT OF ENERGY

    Mr. Garman. Mr. Chairman and members of this committee, I 
am honored to appear before the committee as the President's 
nominee to serve as the Assistant Secretary of Energy for 
Energy Efficiency and Renewable Energy. Mr. Chairman, this past 
December when I came into your office and confided to you that 
there was only one job in the new administration that could 
entice me away from the Senate and from your service and that's 
the job that President has since nominated me to fill. I share 
this with the committee to underscore my ardent desire to serve 
in this capacity and my commitment to energy efficiency and the 
use of renewable energy resources in the Nation's energy mix. 
As the committee knows well our Nation faces serious energy 
challenges. I believe we must promote energy efficiency and the 
use of renewable energy resources as part of a balanced 
approach to meet those challenges and we have tremendous 
opportunities to employ new technology in that effort. That's 
the view I expressed to the Secretary of Energy and officials 
at the White House when I met with them to discuss my potential 
nomination and should I be confirmed by the Senate that is the 
view I will take into this job. Mr. Chairman, I ask that the 
balance of my statement be entered into the record.
    [The prepared statement of Mr. Garman follows:]

 PREPARED STATEMENT OF DAVID GARMAN, NOMINEE TO BE ASSISTANT SECRETARY 
OF ENERGY FOR ENERGY EFFICIENCY AND RENEWABLE ENERGY FOR THE DEPARTMENT 
                               OF ENERGY

    Mr. Chairman and members of the committee, I am honored to appear 
before this Committee as the Presidents nominee to serve as Assistant 
Secretary of Energy for Energy Efficiency and Renewable Energy.
    This past December, I came into your office, Mr. Chairman, and 
confided to you that there was only one job in the new Administration 
that could entice me away from the Senate and from your service . . . 
the job the President has since nominated me to fill. I share this with 
the committee to underscore my ardent desire to serve in this capacity 
and my commitment to energy efficiency and the greater use of renewable 
energy sources in the nations energy mix.
    As this committee knows so well, our nation faces serious energy 
challenges. I believe we must promote efficiency and the use of 
renewable energy resources as part of a balanced approach to meet those 
challenges, and we have tremendous opportunities to employ new 
technology in the effort. That is the view that I expressed to the 
Secretary of Energy and officials at the White House when I met with 
them to discuss my potential nomination. Should I be confirmed by the 
Senate, that is the view that I will take into the job.
    The Office of Energy Efficiency and Renewable Energy (EERE) employs 
a federal work force of more than 570 individuals in pursuit of its 
goals to promote advanced clean energy practices and technologies. It 
implements 31 programs receiving over $1 billion in federal funding 
through a network of DOE, national laboratory, state and local, 
academic and private sector providers.
    If confirmed by the Senate, I will promote scientifically rigorous 
research and development programs designed to continue our progress in 
bringing down the cost of renewable energy technologies to make them 
more competitive in the marketplace.
    If confirmed by the Senate, I will work to expand the efforts 
already launched by the President and the Secretary to have the Federal 
government lead by example in the area of energy efficiency.
    If confirmed by the Senate, I will work to highlight the promise of 
technology, not only in addressing our energy needs, but in dealing 
with the risks posed by increasing concentrations of greenhouse gases 
in the atmosphere.
    If confirmed by the Senate, I will continue the efforts already 
underway to improve project and overall management in EERE to get the 
best value for the taxpayer resources entrusted to our stewardship.
    I appreciate the efforts of the Chairman and the Ranking Member to 
bring my nomination before the committee so quickly, and I am pleased 
to answer any questions the committee may have, either now or in the 
future.
    Thank you.

    The Chairman. Without objection. Thank you very much, Mr. 
Garman. I do appreciate the brevity of the opening statements. 
And relative to questions, one that comes to mind, Mr. Carnes, 
is the ranking--and ranking is in the eyes kind of the 
beholder--but, in any event, George Washington University has 
ranked the Department of Energy performance in 1999 as 14 out 
of 24 agencies when it comes to transparency and 
accountability.
    Now, you're going to go in as Chief Financial Officer with 
the objective obviously of changing this, and I would 
appreciate your views on some of the critical comments that 
this university report made. What corrective action is 
achievable within reasonable limits?
    Mr. Carnes. Yes, sir, thank you, Mr. Chairman. I am 
generally familiar with that report, and the ranking of the 
Department of Energy on that scale.
    And I would say that certainly we can do better. I have 
reviewed the annual reports and believe that there is room for 
improvement there. And if I am confirmed, I would intend to 
inaugurate a more formal and rigorous program analysis and 
evaluation initiative, similar to that in the CFO organization 
in the Defense Department. Which rigorously examines programs 
to evaluate their success in terms of their outcomes.
    This is, and the decisions that are made on budget then are 
driven by outcome decisions that there is a linkage between 
input, that is cost and the output. At the same time, I would 
work with the newly created office in the CFO organization, the 
Office of Engineering & Contract Management to make sure that 
is fully integrated into the budget development process.
    The Chairman. Thank you, Mr. Carnes.
    Mr. Card, Price-Anderson which you're familiar with 
relative to the necessity of reauthorizing that act, and given 
your experience at Rocky Flats, could you predict the 
consequences to the Department's programs for cleaning up 
nuclear sites if we fail to reauthorize Price-Anderson?
    Mr. Card. Well, I won't offer to predict the consequences 
for everybody, but I can say in my previous job that it would 
be a serious issue that we'd have to take up with the 
Department to figure out how to deal without Price-Anderson 
protection.
    Let me add, and I've testified previously, that Price-
Anderson I think provides a significant safety benefit for the 
Department as well through the enforcement process.
    The Chairman. Well, we have had some discussions informally 
relative to whether that should be part of the comprehensive 
energy bill that comes out of the process here or whether we 
should try to move it independently. Do you have any views?
    Mr. Card. I don't know on whether those should be----
    The Chairman. As long as it moves.
    Mr. Card. Yes.
    The Chairman. Yes, I understand.
    Mr. Blake, this is a question that has been asked of me, 
but I'm going to ask it of you so I may have a better answer 
when it's again asked of me. As you're aware, the task force is 
coming out with a report sometime next week, Wednesday or 
Thursday, and I would be interested in knowing how you propose 
integrating the recommendations of the Vice President's energy 
task force into the energy policy that is the responsibility of 
the Department of Energy basically in carrying it out and 
furthering it and instituting it.
    Mr. Blake. I believe the task force, which I haven't 
obviously been personally involved in----
    The Chairman. Nor have I.
    Mr. Blake. I believe that the task force recommendations 
will include areas with specific responsibilities for the 
different departments within the Federal Government. And so 
we'll outline here are the follow-up items that would belong to 
the Department of Energy. Here are the follow-up items that 
would belong to the Department of the Interior. That's my 
understanding.
    The Chairman. Well, it's certainly going to take a lot of 
your time and attention certainly because the expectations are 
very high that in this document we're going to have an outline 
of an energy policy that's identifiable, whether we agree with 
it all or not is something else again as opposed to what we 
have now, which is pretty hard to identify in any specifics. 
It's fairly non-conclusive.
    Which leads me to a question for Mr. Garman, and he'll 
yield to Senator Bingaman, but it's relative to the emphasis 
that we're currently seeing in many of the media and many in 
the environmental community that this crisis can be eliminated 
by a conservation. And your area of responsibility would be in 
renewables, alternatives, and so forth.
    And we've looked at CAFE standards at some length relative 
to generalized statements that you could save as much by 
changing CAFE standards as half as much oil as we import, but 
then somebody said there's 200 million vehicles on the road or 
thereabouts, 130 million of them are cars, most of the cars 
aren't paid for. You're not going to move those cars off the 
highway very rapidly.
    And if you mandate, people will keep some of their old 
cars, and it takes a long time, relatively long time, as much 
as 7 to 8 to 9 to 10 years to bring about a significant number 
of replacement automobiles.
    And I guess you can go out and buy an automobile now that 
gets 50 or 60 miles to the gallon. Some people do and some 
people don't. But I'm concerned with the assumptions that are 
being made on the oversimplification of how we can address this 
crisis by simply conservation. And I've been of the opinion we 
need a balance. But still there are many who simply focus we 
can do it by conservation. I'd appreciate any observations 
you'd care to make.
    Mr. Garman. Mr. Chairman, you've touched on a great many 
subjects, and I'll try to be brief in response. California 
represents to me an excellent analog that we can look at. As a 
State, California has done a superb job at saving energy. I 
think there are only three States that do better than they do 
on an equivalent basis. And yet California is suffering from 
energy shortages and rolling blackouts.
    That is instructive, I believe, to us that energy 
efficiency and conservation, while very, very important tools, 
cannot by themselves get us to where we need to be in terms of 
bringing the Nation the energy it needs to continue its 
economic growth.
    The Chairman. Senator Bingaman.
    Mr. Bingaman. Well, thank you very much. As I said earlier, 
Mr. Chairman, I do support all four of these nominees. I think 
they're very well qualified and look forward to working with 
them when they assume their new jobs.
    Let me ask Mr. Card a couple of questions that occur here. 
The cleanup project of the nuclear weapons complex is a major 
part of what the Department is engaged in. This is an area, of 
course, you had substantial involvement with at Rocky Flats. 
And your former company, Kaiser-Hill, had some safety lapses at 
Rocky Flat that led to the Department fining and reprimanding 
the company.
    Four months ago, the Department sent a letter expressing 
its serious concern about the company's safety performance and 
inadequate management of the Rocky Flat cleanup. Could you give 
the committee your views about those incidents and what the 
problem was that caused that letter from the Department?
    Mr. Card. Sure, thank you, Senator. First let me say that 
safety and security are very serious issues at DOE's aging 
nuclear sites, and it will be my top priority in everything I 
do at the Department.
    I also want to point out while I'm never satisfied with our 
safety performance, that we have worked since I took charge 
there over 50 million hours without a single significant injury 
or exposure. I would place the context of the concerns you 
described in the dramatic acceleration of the cleanup we're 
doing, which calls for a higher safety standard than would 
normally be the case.
    In calendar year 2000 we had our best safety year ever in 
statistics. But clearly, as was pointed out in that letter and 
in the GEO report, we haven't achieved the level of safety 
required to meet our 2006 cleanup obligations. We've prepared a 
safety improvement plan as a result of that that is being 
implemented now, and it's my understanding that DOE is 
satisfied with that plan.
    Mr. Bingaman. Thank you very much. Let me ask another 
question. Two years ago you took a strong stand, I gather, in 
testimony before the House Commerce Committee against requiring 
the Department of Energy to issue additional worker safety 
rules. Could you explain your thinking on this and what your 
view would be in this new position as Under Secretary of Energy 
responsible enforcing these rules?
    Mr. Card. Sure. First let me provide my view at the time in 
that the Price-Anderson structure in DOE is established to 
mirror the NRC. And the quality assurance rule is the basic 
enforcement tool for the NRC. And I think that if you talk to 
the enforcement experts, they will say the quality assurance 
rule, which was in effect, can be used to enforce against 
virtually everything.
    I saw the new rules as simply providing additional 
bureaucracy without any additional worker protection. I think 
that will prove to be true. I don't have a position on that and 
my perspective new rule.
    However, I would take a hard look at the relative benefit 
and whether, in fact, I've missed something, and there is any 
additional enforcement capability actually provided by the new 
rule versus the high cost of implementing those.
    Let me just give you an example. It generally costs even 
for a simple rule about a million dollars per site. So, for 
example, in new Mexico, Sandy and Los Alamos each will be 
consuming over a million dollars per rule instead of doing 
research. I would hope we would be able to look at that and 
make sure we're getting our bang for our buck.
    Mr. Bingaman. Mr. Chairman, let me say again I support all 
the nominees. I'm sorry to see Mr. Garman leaving your own 
office, but I'm sure he's leaving it in good hands, and we're 
at least keeping Kira here. So I have no major complaint about 
that. So thank you very much.
    The Chairman. Thank you, Senator Bingaman.
    Senator Craig.
    Senator Craig. Mr. Chairman, thank you. Gentlemen, 
congratulations to all of you. We're looking forward to having 
you on board sooner rather than later. I know the folks down at 
DOE need your help now and our country does also. So we will 
expedite this, I trust, and the Senate will respond in a timely 
fashion.
    Let me ask a generic question of you all because this is 
something we're all concerned about. Each of our labs has a 
cleanup mission in nearly all situations and, as has been 
stated, it is costly. And probably more costly than it should 
be.
    In 1995, the Department of Energy signed a legally 
enforceable agreement with the State of Idaho in relation to 
cleanup which requires that certain milestones be achieved by 
certain States in the cleanup of contamination at the Idaho 
National Engineering & Environmental Lab.
    I'm doing all I can to see that adequate funding be 
provided for DOE to meet its containment or its commitments to 
the people of Idaho. And this is a conversation that I will 
continue with Secretary Abraham. We have visited at length 
about it. He will be here to discuss the DOE budget, I believe, 
tomorrow.
    The Chairman. Tomorrow, that's correct.
    Senator Craig. Here is my question to you because the 
budget that came forward was wholly inadequate. Its confirmed 
to your respective position was in the Department of Energy do 
I have your assurance that you will work to honor the legal 
commitments for cleanup, such as the Idaho Settlement 
Agreement, and do you agree that such legal commitments are 
binding on DOE and should be used when planning the budget for 
the cleanup program? That's a question for all of you to 
respond to.
    Mr. Blake. Yes, Senator, I think the generic response and 
I, for myself, have not had the opportunity to----
    Senator Craig. Of course not.
    Mr. Blake [continuing]. To review the details of the 
situation in Idaho or elsewhere. Is that the Department takes 
those obligations extremely seriously and will, of course, work 
with you to make sure that we make--take all appropriate steps.
    Mr. Card. I'm committed to meeting the Department's 
regulatory obligations and, further, with regard to your site, 
which I know something about, I'm hoping that I'm able to. 
Rocky Flats, as I left it, was shipping one transuranic 
shipment per day.
    Senator Craig. To Idaho?
    Mr. Blake. Well, no, to ship to ship.
    Senator Craig. And some of what we have in Idaho is Rocky 
Flat products.
    Mr. Card. I'm hoping that to make sure that the technology 
developed there is applied at Idaho to expedite their 
transuranic waste shipments as well.
    Senator Craig. Thank you. Senator Carnes.
    Mr. Carnes. Senator, I would associate myself with the 
comments of my colleagues, and though I had not been privy to 
the development of the budget for fiscal year 2002, I'm 
generally aware of this issue and I can assure you that it is 
my intention to ensure that we meet our legal commitments and 
obligations.
    Senator Craig. David.
    Mr. Garman. Senator Craig, I am fortunate in the fact that 
the EERE office does not have a lab with a nuclear cleanup 
problem. We have the national renewable energy lab in Golden, 
Colorado, but I have not been briefed of any problems.
    Senator Craig. Well, that's right, David, and that's not 
really in or on or what will be your watch. So let me talk to 
you about what is your watch. Because certainly there's a lot 
of public debate lately about the balance of our national 
energy policy between supply and demand and between traditional 
sources and renewable resources.
    And we are about to see the effort of the administration. 
This committee will have the responsibility of coupling that 
with an energy bill that we've introduced that we are well 
aware of. And blending those together and getting them to the 
floor so this country can engage in a national energy debate as 
we should. And then hopefully the Congress will act in a timely 
fashion.
    But do you think that our national energy policy should 
focus in the near term on our largest sources of energy--coal, 
nuclear, hydro, and gas, and what role should renewable 
resources play in that?
    Mr. Garman. Senator, I, of course, as I'm very clear, come 
before the committee as an advocate of renewable energy and 
conservation.
    And having said that, however, I do recognize the current 
energy balance. I recognize the fact that we currently get 10 
percent of our total energy from renewable energy and only 5 
percent, only half of that from non-hydro renewable energy.
    There is emphasis, of course, on wind and solar in a lot of 
the discussions. We hope that wind and solar can be competitive 
in the marketplace and do a great deal more, but that has to 
come with a realistic recognition that right now wind and solar 
together produce about one-tenth, between one-tenth, two-tenths 
of 1 percent of our total electricity mix. So it is important 
to inject an important dose of realism in our expectations of 
just how quickly in the short term we can increase our reliance 
on renewable energy.
    Senator Craig. David, I'm told by those who are in the wind 
business that the new turbines are very efficient because they 
operate or the revolution is slower, they are less damaging to 
birds.
    And that if we would extend from a 2-year to a 5-year 
interval, the tax credits we offer that there would be 
substantially more investment in these areas. Do you know or 
has there been any discussion about that approach obviously to 
enhance the opportunities to bring wind on line?
    Mr. Garman. Currently, wind generators enjoy a production 
tax credit for wind generation. And we are in a period right 
now of great growth in wind generation. In the midst of, say, 
the 24-month period that we're in the midst of now, wind energy 
is expected to essentially double.
    So we have created an atmosphere, if you will, an 
investment atmosphere where wind is competitive with other 
sources of energy.
    Now, of course, if you look at a map of the wind resources 
in the United States, you recognize that you can't put a 
windmill everywhere. Your class six, class five wind resources 
don't exist, are not evenly distributed across the Nation. So 
there are physical limitations as well that we have to be 
realistic about.
    Senator Craig. Well, thank you for that comment. Now, the 
real tough question, the one that was asked by me and others 
continually over the last few years but we never got an answer 
out of the former administration. Do you consider hydro power 
to be a renewable energy resource?
    Mr. Garman. Yes, sir.
    Senator Craig. Thank you. That's a wonderful response, 
David.
    In the area of nuclear energy research, what role should 
nuclear energy play in our energy policy? And I'm asking any of 
you who feel qualified to respond to that. What should DOE be 
doing in its office of nuclear energy to support the role of 
nuclear energy? Because I have a very well-informed suspicion 
that the administration is going to become a very active 
advocate of nuclear energy. Response?
    Mr. Blake. I think, Senator, that will be laid out in the 
Vice President's task force report. Again, not having 
participated, I don't know the specifics, but I would think 
that the most direct and important activity is relicensing some 
of the existing facilities. And then thinking about where the 
country might go in terms of new technology.
    Senator Craig. Anyone else want to respond to that? Okay, 
then, let me ask this of you, Mr. Card. In the past, the 
position of under secretary has functioned as the kind of chief 
scientist for DOE. If confirmed, will you oversee the DOE's 
science programs, and what are your thoughts on DOE as a 
primary science agency of the Federal Government? And what role 
do you think DOE should play in fundamental scientific 
research?
    Mr. Card. Well, DOE is, Senator, one of the lead science 
agencies in the Federal Government. I see no reason why it 
shouldn't continue to play that role until I'm told otherwise. 
My goal would be to support that role and build it from where 
it is today.
    Senator Craig. Well, I think we have a lot of reinvestment 
to do in our science infrastructure at our national labs.
    As you know, many of our facilities are 50 years old and, 
in some instances, finding it difficult to attract new workers. 
So you do have, I think, an important responsibility. Because I 
do believe, as I think most on this committee believe, that DOE 
is a primary science agency for our country, and that these 
labs are extremely valuable resources, and they ought to be 
engaged in primary scientific research appropriate.
    Let me turn to my colleague, Senator Ron Wyden, who has 
joined us. Ron.
    Senator Wyden. I thank, my friend. Gentlemen, welcome, and 
it's good to visit with you a bit in the office, Mr. Blake, and 
I do have some questions as I indicated I would at that time.
    As you know, in the last few days California has been hit 
with another round of blackouts, rolling blackouts. I talked to 
folks in Palo Alto yesterday at my mom's nursing home. They 
said they were looking at blackouts yesterday, and I guess I'd 
like to begin by saying do you see any scenario by which the 
Energy Department would order Bonneville Power or other 
utilities to send power to California again in this kind of 
environment?
    Mr. Blake. It's difficult to rule out any scenario, but I 
know that's not on the planning horizon.
    Senator Wyden. Given the fact that you won't rule it out, 
I'm going to have to ask you other questions because this is a 
matter of enormous importance to Senator Craig's constituents 
and mine. If you end up ordering my constituents to send power 
to California again, do you think California ought to be 
required to provide States full faith in credit as a guarantee 
if people in Idaho and Oregon and New Mexico have to send power 
under Federal order to California?
    Mr. Blake. Senator, I appreciate that you asked that 
question for me 2 days ago. I think at that point that is still 
in the realm of a hypothetical question. I don't have the 
answer for you in terms of what the Department's response would 
be on those circumstances.
    Senator Wyden. But, no, your opinion as a policy matter if 
somebody is ordered to sell power to California, do you think, 
in your opinion as a policy matter, that the State ought to 
have to put its full faith in credit behind it?
    Mr. Blake. I think you'll have to look at the other 
conditions of the generator sales into California and whether 
that would actually be creating more stress on the system than 
relieving stress.
    Senator Wyden. Well, you told me in my office when you were 
there a couple of days ago that you wanted to bring to the 
Energy Department a private-sector approach, a management 
approach which is welcome. What would have been the private-
sector approach if GE had supplied gas turbines to California 
utilities, and those utilities hadn't paid GE back for months? 
What would you be doing about it as a GE executive.
    Mr. Blake. As a GE executive, we often have issues with 
important customers where immediate payments aren't made. And 
where we often work out payment terms in contemplation of long-
term relationships. I think that's particularly true in an area 
like electricity where fundamentally because of the 
interconnected grid you have to maintain good relations amongst 
the States.
    Senator Wyden. Well, that's interesting, because that's my 
sense of what the private sector approach is, but I don't see 
any evidence that the Energy Department is pursuing that 
approach right now from the California ISO.
    And the fact of the matter is California owes somewhere in 
the vicinity of $100 million that was sent by Federal order 
under my constituents, under Craig's constituents, Senator 
Bingaman's constituents.
    You just said you'd use the private-sector approach, but I 
don't see any evidence that the Energy Department is doing that 
right now.
    I went down to Senator Abraham's office several weeks ago 
and asked for that approach. Let's have a private-sector 
approach, pay it back. I went down there at my initiative to 
ask it, and I haven't heard anything about what the Energy 
Department is doing. Can you enlighten me as to whether 
something is being done?
    I've got workers who are out of work at aluminum plants in 
communities in my State just flat on their back. They were 
forced to send power under Federal order. You just said this 
morning you wouldn't rule out having them do it again. You 
wouldn't rule it out again, and yet I don't see any evidence 
from the responses you're giving me this morning that there's 
any plan to even get paid back what's already owed. So why 
don't you enlighten me on that.
    Mr. Blake. Well, Senator, first my response was to the 
question whether there was any scenario where that would be 
possible. And it would seem reckless to completely rule that 
out, certainly based on what I know now.
    In terms of California status, I believe the Federal 
Government's position is not unique amongst the energy 
providers in the State. And this is a complex and difficult 
matter. The Department is aware of your concerns. I think 
they're shared by many others, and it's an issue that's going 
to have to be resolved by the State going forward.
    Senator Wyden. What is different here is that we were 
required to do it under Federal order. And you're not ruling 
out doing it again, number one. You're not willing to say that 
the position of the Department is that California at least 
ought to put its full faith in credit behind it.
    I don't see any urgency on the part of the Department in 
terms of getting the Northwest paid back.
    As you know, Bonneville Power is a Federal entity. Let me 
just tell you, I think the Department's handling of this, in my 
view, is very disappointing. Suffice to say, I intend to stay 
with this until our constituents are made whole. And the fact 
that you're willing to say you're going to not rule out doing 
it exactly the same way, not even requiring that California put 
its full faith in credit behind the next one I think is just 
unacceptable.
    Let me turn my attention to another area and we'll see if 
we can do a little better on this one than your previous 
answers.
    Recently, there has been discussion about how the four 
major power wholesalers, Enron, Reliant, Dynergy, and Duke run 
trading exchanges in Houston that can have a significant impact 
on energy prices nationwide. In effect, people are coming and 
going and trading electricity and natural gas.
    My view is that if we're going to treat electricity as a 
commodity, there has got to be open access to information for 
markets to function efficiently.
    As it stands now, basic operating information required to 
evaluate the severity of power problems and the appropriate 
steps that would be needed to protect our systems from outages 
are just unavailable in other parts of the country. Do you 
think markets would work more efficiently if more operating 
information about electricity markets, talking about supply and 
demand and transmission, were available to market participants 
and to the public? And that there was more transparency in 
these exchanges?
    Mr. Blake. Markets always work better with more 
transparency and more data. And I think that the issue that's 
being balanced there is you also can't give competitors access 
to vital competitive information. And that's the balance that 
needs to be struck, and that I believe the Department is 
looking for.
    Senator Wyden. I've been talking to both industry and 
public interest groups about introducing legislation to promote 
such an approach. I've talked to a number of my colleagues on 
this committee about that. Can I take your answer as one that 
you would be sympathetic to the general thrust of legislation 
like this that would ensure that with energy being 
commoditized, people ought to get more information about 
transmission and outages and the like?
    Mr. Blake. It is absolutely a critical thing to look at as 
we look at the market, as you say.
    Senator Wyden. One last question, if I might. As I talked 
about in the office, I was concerned about the proposed cleanup 
cuts in the Hanford budget. My understanding is if cleanup 
programs are going to be cut by $180 million, the proposed 
funding for the vitrification plant to process the high level 
waste is 200 million less than what experts say is needed. What 
assurance can you give to the million people who live 
downstream from Hanford that the cleanup and the effort to 
protect the river is going to stay on track, given these cuts?
    Mr. Blake. In the Department's budget submission, I know 
that the Department is still fully committed to meeting its 
obligations. I think one of my colleagues may be better able to 
address the specifics of the budget submission. But I know from 
the briefings I have received that there's a great level of 
confidence of still being able to achieve the end result.
    Senator Wyden. You told me in the office that you were 
going to look to try to slash overhead as a way to try to get 
more dollars to cleanup. As I say, I think the proposal itself, 
and I noted that the Member of the Congress, the Republican 
Congressman from the area thinks it's woefully inadequate. Do 
you plan to really target overhead expenses as a way to try to 
stretch dollars? And if that's the case, what kind of savings 
do you think could be generated there?
    Mr. Blake. I think what I said is it's always possible to 
look at more effective and efficient and cost-effective ways of 
doing things, and that overhead is one area you'd look at. 
You'd also look at how can you better achieve the same end 
result through different methods. I haven't given a specific 
look at the Hanford situation or any of the other specific 
budgetary issues.
    Senator Wyden. When do you plan to?
    Mr. Blake. As soon as I'm confirmed.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Craig. Mr. Francis, Senator Wyden and I share the 
same concern about Federal orders. I think it is important to 
reflect what has happened with this administration coming to 
town, inheriting a Federal order that had been put in place by 
the past administration. And we strongly questioned that at the 
time. They did extend it one time but agreed they would never 
extend it again.
    While we don't have the absolute assurance, we have the 
clear attitude and the expression by the President and the Vice 
President that there will not be an extension in the market of 
an order of a Federal order, and that is very critical to the 
West and very critical to the grid. And most importantly it's 
critical to California to get their act together.
    And if we keep, quote, ``bailing them out,'' then there's 
less willingness to do that. It's a rather harsh way of doing 
that.
    Senator Wyden. Would my friend yield?
    Senator Craig. Surely.
    Senator Wyden. I thank him, and I think he knows I'm going 
to work very closely with him on all of these issues. What 
concerned me about the witness' answer, it seems to me he 
wouldn't rule it out. And the President and the Vice President 
earlier had, and that's what I find troubling.
    Mr. Blake. I didn't--let me be clear.
    Senator Craig. You may speak, Mr. Blake.
    Mr. Blake. Thank you. I didn't intend by that statement to 
suggest anything other than what Senator Craig has set up in 
terms of the administration's position and its, as I said, its 
lack of intent to do so.
    Your question was is it conceivable to look up any scenario 
where that would happen? I--that's one where I can't--it's a 
hypothetical question, and it would seem to me, as I said, to 
be a bit reckless to rule out that under any scenario. But I 
did not intend----
    Senator Wyden. If the Senator from Idaho has the time, I 
just want him to know that I'm going to work to make sure that 
the President's commitment that they weren't going to do it 
again is what's the approach of this administration. Because I 
find that answer very troubling, and I thank you for yielding.
    Senator Craig. Well, thank you. I think it is important 
that the record show the scenario of those orders and the 
frustration this committee had or at least a good many of us on 
this committee had with the initial one. And the very real 
pressure that we did put on the new administration, and frankly 
their response inappropriately placed.
    Lastly, the expression that Senator Wyden had about cleanup 
at Hanford and the--I had about cleanup at the INEL is just 
mutually shared. The budget is woefully inadequate in those 
area.
    Now, I will say as we bring this budget resolution to the 
floor, we believe we have found a recommendation difficult, and 
we hope the administration will support us in that remedy with 
some supplemental funding and about a billion dollars worth of 
it going into the lab structure for the purpose of cleanup. 
Coming out of a defense supplemental. But that is not yet fully 
assured.
    We believe we can do that, we have commitments, and that is 
the intent of this Senator.
    It is certainly the intent of the chairman of the Budget 
Committee that we can effectively fund, not just flat fund but 
fund with the appropriate increases, the necessary program 
levels in those areas. So I hope we can get that accomplished 
that you're going to have additional resources to work with. 
But I do believe that is a commitment that we now have, and 
that will be done.
    Having said that, gentlemen, thank you very much. All 
additional questions for the record should be communicated to 
Chief Counsel's office by 5 p.m. this afternoon. I guess that's 
what I just read.
    Anyway, thank you all very much. Best of luck. We'll work 
hard to expedite your confirmations and the committee will 
stand adjourned.
    [Whereupon, at 10:59 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                                      Department of Energy,
                                      Washington, DC, May 14, 2001.
Hon. Frank Murkowski,
Chairman, Energy and Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Mr. Chairman: I want to thank you and Senator Bingaman for the 
opportunity to appear before the Committee on Energy and Natural 
Resources as Deputy Secretary nominee at the U.S. Department of Energy.
    Enclosed for the record are the answers to the post hearing 
questions submitted to me in writing by members of the committee.
    Please let me know if I can be of any further assistance.
            Sincerely,
                                                     Francis Blake.
[Enclosures]
              Response to Question From Senator Murkowski
    Question. The Energy Information Administration does an excellent 
job reporting on energy trends and specifics, but there are always 
things they can do better. I think part of the reason we have the 
energy problems we do is the American public hasn't gotten information 
that is easily understood--much of the EIA's information is good for 
analysts and governments, but not so good for the average American.
    Will you take a look at EIA's policies regarding making some more 
``readable'' information so American consumers, educators and others 
can more easily use the information for their decision-making?
    Answer. Yes, I understand your concerns about making information 
available to the public in a more ``readable'' format and I will convey 
your concerns to the Energy Information Administration management team. 
As you indicated, there is room for improvement in this area.
                                 ______
                                 
                                      Department of Energy,
                                      Washington, DC, May 14, 2001.
Hon. Frank Murkowski,
Chairman, Energy and Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Mr. Chairman: I want to thank you and Senator Bingaman for the 
opportunity to appear before the Committee on Energy and Natural 
Resources as Under Secretary nominee at the U.S. Department of Energy.
    Enclosed for the record are the answers to the post hearing 
questions submitted to me in writing by members of the committee.
    Please let me know if I can be of any further assistance.
            Sincerely,
                                                    Robert G. Card.
[Enclosures]
              Response to Question From Senator Murkowski
    Question. Your efforts at Rocky Flats pioneered the closure site 
concept for DOE's cleanup program. Closing a DOE site obviously depends 
on removing the nuclear waste material from the closure site and 
shipping and disposing of it safely--all of which sounds like an 
expensive proposition. The DOE's Ohio Field Office has had a lot of 
success and cost savings through its use of commercial disposal 
facilities.
    Could you comment on the use of commercial means for shipping and 
disposing of the low-activity waste to keep the taxpayer costs as low 
as possible?
    Answer. Experience at both the Ohio Field Office and Rocky Flats 
has shown a benefit in the use of commercial shippers and disposal 
facilities. Commercial options can be an important element of DOE's 
waste shipping and disposal strategy, potentially providing cost-
efficient alternatives to the use of federal disposal facilities. 
Having a broad range of disposal options and shipping capabilities, 
including commercial ones, is important to the long-term success of the 
EM program, both in terms of potential taxpayer savings and operational 
redundancies in case a particular site or shipper is not able to 
perform. Then within those options available, DOE should always choose 
the shipping and disposal options that are in the best interest of the 
Government.
                                 ______
                                 
                                      Department of Energy,
                                      Washington, DC, May 14, 2001.
Hon. Frank Murkowski,
Chairman, Energy and Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Mr. Chairman: I want to thank you and Senator Bingaman for the 
opportunity to appear before the Committee on Energy and Natural 
Resources as the Assistant Secretary for Energy Efficiency and 
Renewable Energy nominee at the U.S. Department of Energy.
    Enclosed for the record are the answers to the post hearing 
questions submitted to me in writing by members of the committee.
    Please let me know if I can be of any further assistance.
            Sincerely,
                                                      David Garman.
[Enclosures]
               Responses to Questions From Senator Thomas
    Question 1. In Wyoming we have sugar beet tops, wheat straw, corn 
stover and barley straw as agricultural waste products. I understand 
technologies are being developed by biotechnology companies to use 
enzymes to convert those waste products to energy and other products. 
What can DOE do to help the private sector move these technologies 
forward in a speedier fashion?
    Answer. I believe the Department of Energy has much to offer in 
accelerating the research, development, and commercialization of 
biobased products and bioenergy technology into the United States 
economy. I understand that the Department has integrated efforts 
underway within its Offices of Science, Fossil Energy, and Energy 
Efficiency and Renewable Energy focused toward the realization of a 
biorefinery facility. Such a facility, located in rural America, would 
use locally grown feedstocks as the raw materials for high value fuels, 
products, and power. Research is presently underway at DOE laboratories 
and through cost shared projects with industry and universities, on the 
conversion processes for biomass to fuels and products. Specialized 
yeasts and new enzymes are being developed to optimize the conversion 
processes and make the greatest use of available feedstocks. Because of 
their abundance, wheat straw, rice straw and corn stover are targeted. 
Should I be confirmed, I will work to promote the partnerships needed 
to advance technologies and move the Biorefinery from a concept to a 
sustainable industry.
    Question 2. The New York Times reports today that Vice President 
Cheney is supporting clean energy production methods that use enzymes 
to convert waste products to energy. President Clinton had signed an 
Executive Order to begin a biobased products and bioenergy initiative. 
What will the Bush administration do under your leadership to build on 
these efforts to help us develop carbohydrate based industrial 
processes?
    Answer. The U.S. Department of Energy is working with industry and 
university partners on research and development in this area, and will 
conform current efforts in accordance with the direction of the Vice 
President and the new national energy strategy. I believe there is 
great promise in developing technologies which will reduce our 
dependence on imported oil while allowing America's farmers to provide 
not only the food we need but also the energy we demand.
    Question 3. Senator Lugar authored a bill to fund research into 
enzyme biomass technologies. I understand this bill has not been well 
funded by the appropriations committee. What level of funding do you 
think Congress should provide for this program?
    Answer. I fully support the research and development goals outlined 
in the Biomass Research and Development Act of 2000. The pending 
technical priorities of the Biomass Research and Development Technical 
Advisory, Committee as well as guidance in the national energy strategy 
will act as the launching point for any needed changes in direction and 
funding. It is my understanding that no new appropriations have been 
made available to date to implement the Act. However, because of the 
importance of this research, I also understand that DOE's Office of 
Energy Efficiency and Renewable Energy (EERE) has used funding from its 
base programs to allow modest solicitations in support of the Act. 
Moreover, EERE has aligned its ongoing programs in fuels, power, and 
products with the goals and guidance of the Act in order to work at 
achieving its goals.
    Question 4. The USDA and DOE have been required by the Lugar-Udall 
legislation to set up a Technical Advisory Committee made up of 
industry people to advise these agencies on advanced biomass conversion 
technologies. Jack Huttner from Genencor and Glenn English from NRECA 
are the co-chairs of this group. Do you know how many times they have 
met and what recommendations they are developing for DOE? How much 
weight would you give these recommendations from the Technical Advisory 
Committee?
    Answer. The Biomass Research and Development Technical Advisory 
Committee was established on November 22, 2000. It is my understanding 
that they have met three times or once each quarter as required by the 
Biomass Research and Development Act of 2000. This committee, with 25 
members of industry, universities, farm interest, and environmental 
groups, is positioned to provide critical recommendations in the area 
of technical priorities to DOE as well as USDA. While I do not yet know 
what recommendations they will make, the committee is reportedly 
looking at existing federal investments, emerging technologies, and 
strategies for future investments. Their next meeting is scheduled for 
June 11, 2001.

                                    

</pre></body></html>
